OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
LOCAL GOVERNANCE
ACTIVITIES
AUDIT REPORT NO. E-267-07-007-P
July 31, 2007




BAGHDAD, IRAQ
Office of Inspector General




July 31, 2007

MEMORANDUM

TO:    	        USAID/Iraq Mission Director, Hilda Arellano

FROM: 	         Regional Inspector General/Baghdad, Nancy J. Lawton /s/

SUBJECT:	       Audit of USAID/Iraq’s Local Governance Activities
                (Report No. E-267-07-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments to the draft report and have included the comments in
Appendix II.

The report contains three recommendations with which you concurred in your response
to the draft report. Based on the actions you have taken in response to the audit
findings, we consider that final action has been taken on Recommendation No. 2 and
management decisions have been reached on Recommendations Nos. 1 and 3. Please
provide the Audit, Performance and Compliance Division (M/CFO/APC) with evidence of
final action upon completion of actions taken on Recommendations Nos. 1 and 3.

I want to express my sincere appreciation for the cooperation and courtesies extended
to my staff during this audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


     USAID/Iraq Must Enforce Contract Requirements ………………………………………5 


     USAID/Iraq Must Evaluate Contractor Performance ................................................... 8 


Evaluation of Management Comments ......................................................................... 9 


Appendix I – Scope and Methodology ........................................................................ 11 


Appendix II – Management Comments ....................................................................... 12 

SUMMARY OF RESULTS

USAID/Iraq designed the second local governance activities program to reinforce gains
made in its first program and awarded Research Triangle Institute (RTI) a two-year
contract in April 2005 with an estimated cost of $90 million to implement the program.
By December 2006, the end of the audit period, total program funding had increased to
$175.4 million as a result of USAID/Iraq exercising two option periods. (See page 2.)

According to the contract, RTI was to carry out the following activities:

   •	   Promote policy reform in support of local governance,
   •	   Support clarification of roles and responsibilities of different levels of government,
   •	   Promote increased efficiency of local service delivery, and
   •	   Assist in the development of regularized mechanisms of citizen participation in
        the government decision-making process.

The audit found that the local governance activities did not have intended outputs or
baselines to measure progress against because USAID/Iraq failed to enforce contract
requirements that the contractor submit, for approval, quarterly implementation plans
detailing planned activities (intended outputs) and a performance management plan
which would have set forth baselines and targets. The audit also found that USAID/Iraq
failed to perform the required contractor performance evaluations. (See pages 2 and 4.)

As part of the current audit, the team also reviewed actions taken by USAID/Iraq to
address recommendations in a prior audit of the first local governance activities
program. The current audit found that the Mission’s actions taken in response to the
prior audit to enforce the contract requirements and to complete the contractor
performance evaluation were ineffective. (See page 5.)

Therefore, we are making three recommendations for USAID/Iraq to:

   •	 Require the contractor to submit the current quarterly implementation plan within
      30 days from the issuance of this report, and if this plan is not submitted, that the
      Contracting Officer determine whether this contract should be terminated for
      default;

   •	 Establish a procedure to ensure that all future quarterly implementation plans are
      submitted as required; and

   •	 Conduct an evaluation of the contractor’s performance within 30 days from the
      issuance of this report. (See pages 7 and 8.)

Mission management concurred with the recommendations. Based on the actions taken
by the Mission in response to the audit findings, we consider that final action has been
taken on Recommendation No. 2 and management decisions have been reached on
Recommendations Nos. 1 and 3. (See pages 9 and 10.)

Management comments are included in their entirety in Appendix II. (See page 12.)



                                                                                            1
BACKGROUND

The USAID/Iraq Transition Strategy statement on governance begins with the comment
that in order for Iraq to be successful in its effort to construct a nation built on democratic
principles it must address the sources of instability that threaten to undermine its entire
nation-building enterprise. Furthermore, the lack of a capable, accountable, and
legitimate government remains a highly destabilizing factor in the Iraqi landscape.

The sector analysis section of the Transition Strategy continues with remarks that at
local levels, government institutions are weak and accountable only to the central
government; local government officials and civil servants did not respond to local needs
and priorities. As a result, local communities have not developed an administrative
capacity to deliver services to the population, prepare or execute budgets, or respond to
local concerns. The majority of newly elected local council members, including 75
percent in southern governorates, do not have related prior experience and have
assumed their posts without any training. To meet the basic service delivery needs of
their constituents, resources and authority must be transferred to the local level. At
present, however, local officials do not have the capacity to deliver basic services
effectively.

On the issue of governance, in a nutshell, the Transition Strategy emphasizes
improvement of local government’s ability to provide services. To reinforce gains made
in its first local governance program, USAID/Iraq designed a follow-on program. In this
program, the contractor’s efforts at the national level are intended to assist Iraqis to
create an enabling environment for local governance. And at the sub-national level, the
contractor should build the capacity of governorates, representative councils, and sub-
national offices of central government ministries to manage more effective, efficient, and
responsive customer-oriented services.

In April 2005, USAID/Iraq awarded Research Triangle Institute (RTI) a two-year contract
with an estimated cost of $90 million to implement the follow-on local governance
activities program. This base contract also included three one-year options and, during
the period of the audit, USAID/Iraq exercised two option periods. Consequently, as of
December 31, 2006, USAID/Iraq had obligated and disbursed $175.4 million and $61
million, respectively, for local governance activities.1

According to the contract, RTI was to carry out the following activities:

    •	   Promote policy reform in support of local governance,
    •	   Support clarification of roles and responsibilities of different levels of government,
    •	   Promote increased efficiency of local service delivery and,
    •	   Assist in the development of regularized mechanisms of citizen participation in
         the government decision-making process.


1
 Subsequent to the period of audit, in January 2007 the Mission exercised the third option year
and obligated an additional $43.3 million. In February 2007, the Mission obligated an additional
$43.6 million, bringing the total obligated amount to $262.4 million (difference due to rounding).
After exercising the third option year, the revised contract completion date is December 31, 2008.


                                                                                                2
AUDIT OBJECTIVE
As part of the fiscal year 2007 annual audit plan, the Regional Inspector General in
Baghdad, Iraq conducted this audit to answer the following question:

   •   Did USAID/Iraq’s local governance activities achieve their intended outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS

Although USAID/Iraq had obligated $175.4 million for local governance activities as of
December 31, 2006, we could not determine if those activities achieved their intended
outputs because the Mission did not establish any intended outputs to measure progress
against. This occurred because USAID/Iraq did not enforce contract requirements that
the contractor, Research Triangle International (RTI), submit for approval quarterly
implementation plans that identified planned activities (intended outputs). USAID/Iraq
also did not enforce the requirement that RTI submit a performance management plan
establishing baselines and targets for the planned activities. USAID/Iraq’s current
cognizant technical officer (CTO) for the local governance activities became aware of
these problems upon his arrival and has been working with RTI officials to obtain the
required plans.

In addition to not enforcing all contract requirements, USAID/Iraq did not complete the
annual evaluation of RTI’s performance, due in May 2006, as required by the Federal
Acquisition Regulation and Agency policy. Even so, USAID/Iraq increased funding for
the contract by $85 million by exercising two one-year options. The Mission is currently
working on completing the contractor’s annual performance evaluation.

During the audit period, RTI reported achieving a total of 2,214 activities that consisted
of training and technical assistance in five regions throughout Iraq.2 The following table
includes a breakdown of activities conducted by region as summarized in the RTI annual
and quarterly activity reports:

                                Activities Conducted by Region

                                             North                 South
                                 North                  Central              South
            Activities                       Central               Central             Totals
                                 Region                 Region               Region
                                             Region                Region
Core Training                           58         146          87       459        47       797
Supplemental Training Modules           78           34         37       265        33       447
Conferences and Workshops                5            0         23         2         4        34
Technical Assistance Events            121           49       193        509        64       936
                                                                   Total Activities        2,214

A brief description of each activity follows:

    •	 Core Training.        Competency-based training modules on transparency,
       accountability and responsiveness for local governmental officials emphasizing
       gradual skill and competency building. Examples of training topics include:
       Introduction to Service on Council and Council Procedures.

    •	 Supplemental Training. Training modules on responsibility and corruption to
       address varying needs of local government officials to extend their skills and


2
 The five regions include the following 18 provinces: North– Ninawa, Erbil, Sulaymaniyah,
Dahuk, Kirkuk; North Central–Anbar, Salah Ad Din, Diyala; Central–Baghdad; South Central–
Babil, Qadisiyah, Najaf, Karbala, Wasit; South–Basrah, Maysan, Dhi Qar, Muthanna.

                                                                                               4
        competence beyond core areas. Examples of training topics include: Budgeting
        for Local Government and Negotiation and Problem Solving.

     •	 Conferences and Workshops. Forums for sharing and updating information
        and knowledge or looking at problems within a specified subject area with the
        objective of arriving at solutions by the end of the conference. One example is
        the South Regional Agribusiness Conference.

     •	 Technical Assistance. Technical consultations provided that build on existing
        training modules and assist in developing systems and processes in targeted
        organizations.

While the contract stated that training and technical assistance should be provided by
the contractor in promoting policy reform in support of local governance, the activities
summarized in the table on page 4 were not linked to an overall program. In our view,
RTI reported on only successful achievements rather than progress achieved against
specified targets.

The current local governance activities program is a follow-on program to one that was
implemented by RTI from March 2003 through May 2005. The Regional Inspector
General in Baghdad audited that program and made five recommendations to
USAID/Iraq for corrective action that addressed: (1) enforcing reporting requirement, (2)
enforcing monitoring requirements, (3) proper approval of grants, (4) evaluating
contractor’s performance, and (5) review of payment vouchers.3 As part of the current
audit, the team also reviewed actions taken by USAID/Iraq to address
recommendations in a prior audit of the first local governance activities program. The
current audit found that the Mission’s actions taken in response to the prior audit to
enforce the contract requirements and to complete the contractor performance
evaluation were ineffective. The same two findings are repeated in this audit of the
follow-on local governance activities program.

To increase the chances of program success, USAID/Iraq must enforce contract
requirements and must evaluate contractor performance. These issues are discussed in
detail below.

USAID/Iraq Must Enforce
Contract Requirements

    Summary: USAID/Iraq had not enforced contract requirements that RTI submit
    quarterly implementation plans and a performance management plan (PMP).
    These two planning documents define outputs to be achieved in the following
    quarter and the baselines and targets to measure achievements against. RTI
    officials did not respond to requests from the CTO for the required documents, but
    the frequent turnover of cognizant technical officers managing the contract, and
    being distracted by other priorities within the Mission, may have diluted the
    significance of the plans as a contract requirement. However, without those plans,
    USAID/Iraq could not manage, monitor, and assess RTI’s performance or
    determine whether activities carried out by RTI covered all essential aspects of the
    local governance activities program.

3
 Audit of USAID/Iraq’s Local Governance Activities, Audit Report No. E-267-06-003-P dated
July 10, 2006.

                                                                                            5
Quarterly Implementation Plans – RTI had not submitted any quarterly implementation
plans to USAID/Iraq.

The contract requires that RTI deliver a quarterly implementation plan, for USAID/Iraq’s
approval, two weeks prior to the beginning of each quarter, but RTI had yet to submit
such a plan. In November 2005, RTI submitted a two-year work plan to USAID/Iraq that
the CTO approved in February 2006. But while the work plan provided an outline of the
work to be performed, it did not specify the number of activities or outputs, such as the
number of planned training seminars or the target number of people to be trained.
During the audit fieldwork, the contractor claimed that no implementation plans existed
because the former CTO had waived the requirement; however, CTOs do not have the
authority to waive contractual requirements. Additionally, in June 2006, the former CTO
wrote the contractor and asked for the submission of the quarterly implementation plan
and the quarterly progress report. RTI responded that completion of these documents
would take precedence over other activities. But as of April 2007, the Mission had not
received any quarterly implementation plans from RTI. However, the current CTO has
provided copies of emails that show his ongoing efforts to get the contractor to submit
the required quarterly implementation plans.

The purpose of the quarterly implementation plan is to identify activities that the
contractor plans to carry out (intended outputs) during the following quarter. According
to RTI officials, activities are determined based on consultations with the Provincial
Councils and local government officials. Once the activities have been completed, they
are included in a progress report to USAID/Iraq. In our view, RTI should obtain
USAID/Iraq’s input and concurrence prior to starting activities and not simply report what
activities were carried out. An approved quarterly implementation plan is the mechanism
for doing this. Without such approved plans, the effectiveness of the overall program is
questionable. In effect, by failing to enforce the requirement that RTI submit quarterly
implementation plans, USAID/Iraq waived a valuable program management tool.

Since the June 2006 request for quarterly implementation plans, there was no follow-up
with RTI on the issue until the current CTO arrived in November 2006. This occurred
because of the frequent turnover of CTOs assigned to the local governance activities,
coupled with competing Mission priorities.

Performance Management Plans (PMP) – RTI had not submitted a PMP that met
USAID/Iraq’s requirements until April 2007.

The original contract required that RTI deliver a Performance Monitoring Plan4 for
USAID/Iraq’s approval 60 days after the signing of the contract; in this case, by June 26,
2005. The PMP is a tool used to plan, manage, and document the collection of
performance data. It contributes to the effectiveness of the performance monitoring
system by assuring that comparable data will be collected on a regular and timely basis
and, among other benefits, serves to determine baselines and targets. USAID/Iraq,
however, did not follow up with RTI to obtain the required PMP and RTI did not submit a
draft PMP until October 2006—more than 15 months later. However, this draft PMP was
not approved by USAID/Iraq, because it was determined to be incomplete by not
containing the required output or indicator information. Likewise, a revised PMP
submitted in January 2007 was still missing some USAID/Iraq-required information.
4
    A performance monitoring plan is the former name for the performance management plan.

                                                                                            6
Another revised PMP was subsquently submitted to the CTO, and it was approved on
April 20, 2007.

The failure to enforce the requirement for a PMP occurred because of the frequent
turnover of CTOs. During the audit period, four different CTOs were designated to
monitor the local governance activities.

In summary, without approved quarterly implementation plans that identify planned
activities, and without a PMP that defines baselines and targets, USAID/Iraq could not
assess whether the $175.4 million obligated for the local governance activities
program—and implemented by RTI—improved local governments’ ability to provide
services. Moreover, by reporting only on achievements, it is difficult to determine what
essential aspects of the local governance program are not being addressed by RTI’s
activities.

As noted previously, problems similar to those just discussed were pointed out to
USAID/Iraq by the Regional Inspector General, Baghdad in the audit of the first local
governance program that was also implemented by RTI. The Mission agreed with the
audit recommendations and took corrective action by modifying the contract to revise the
PMP due date and by holding a one-week PMP workshop that RTI staff were required to
to attend. However, USAID/Iraq’s attempts to improve oversight of some aspects of the
RTI contract were unsuccessful mainly because of the frequent turnover of CTOs, a
possible result of one-year assignments in Baghdad. Due to the fact that the Mission
has recently received and approved a PMP from RTI, we are not issuing a formal
recommendation regarding the PMP. To address the lack of the implementation plans,
we are making the following recommendations:

   Recommendation No. 1: We recommend that, within 30 days from the issuance
   of this report, USAID/Iraq enforce the contract requirement that the contractor
   submit the current quarterly implementation plan and in the event that this plan is
   not submitted, that the Contracting Officer make a determination whether this
   contract should be terminated for default.

   Recommendation No. 2: We recommend that USAID/Iraq establish a procedure
   to ensure that all future quarterly implementation plans are submitted as required
   by the contract.




                                                                                         7
USAID/Iraq Must Evaluate
Contractor Performance
 Summary: Federal regulation and Agency policy guidance require USAID/Iraq to
 evaluate contractor performance at least annually and upon contract completion.
 RTI’s initial performance evaluation under the current contract was due in May 2006,
 but USAID/Iraq did not complete the required evaluation. Nevertheless, the Mission
 exercised two option periods that provided additional funding of $85 million to the
 contract, thereby increasing the total contract funding to $175.4 million. Failure to
 complete the performance evaluation occurred because, among other reasons,
 USAID/Iraq did not make contractor performance evaluations a priority. Because
 USAID/Iraq did not give priority to a requirement designed to provide information to
 make better acquisition decisions, contract costs were increased substantially without
 Mission management knowing whether this was the best use of limited resources.

Federal Acquisition Regulation, Subpart 42.15 entitled ‘Contractor Performance
Information,’ provides policies and establishes responsibilities for recording and
maintaining contractor performance information. USAID’s Acquisition and Assistance
Policy Directive 06-05 (revised March 9, 2007), entitled ‘Evaluation and Use of
Contractor Performance Information,’ provides consolidated guidance on the evaluation
and use of that information. The directive requires cognizant technical officers (CTOs) to
evaluate contractor performance at least annually and upon contract completion to, in
part, provide information for future source selection and other acquisition decisions.

The first evaluation of the RTI contract should have been done in May 2006. A previous
CTO began the evaluation process, but departed the Mission in June 2006 and the
required evaluation was not approved and finalized. As cited earlier, an audit report
issued by the Regional Inspector General, Baghdad in July 2006 addressed
USAID/Iraq’s shortcomings in evaluating RTI’s performance under the first local
governance program. That report included a recommendation that USAID/Iraq adopt
procedures to ensure that contractor performance evaluations are prepared as required.
The Mission agreed with the recommendation and reported taking steps to correct the
deficiency by developing a contractor performance review log and by adding a section to
the USAID/Iraq employee checkout list to ensure that CTOs complete this reporting
requirement before leaving post. However, as noted above, the performance evaluation
report prepared in response to our recommendation was not approved and finalized.
Consequently, when USAID/Iraq exercised two option periods in July and December of
2006—obligating an additional $85 million to the RTI contract—Mission officials did not
have essential performance information available on which to base this acquisition
decision that increased the estimated cost of the contract by $85 million.

We believe that this repeat situation occurred because USAID/Iraq did not make the
contractor performance evaluation process a priority. There were several other reasons
that included the frequent change in CTOs, leave schedules, changing work priorities for
CTOs to meet Mission demands, and short-term assignments.

As of April 2007, USAID/Iraq was working on the evaluation of RTI’s performance, but
because this is a repeat finding, we are making the following recommendation.

   Recommendation No. 3: We recommend that USAID/Iraq conduct an evaluation
   of the contractor’s performance within 30 days from the issuance of this report.

                                                                                        8
EVALUATION OF
MANAGEMENT COMMENTS
In its comments to the draft report, the Mission agreed with each of the audit
recommendations and described actions it was taking to address the recommentations.

In response to Recommendation No. 1, the Mission stated that the contractor has begun
submitting quarterly implementation plans on a regular basis.          The quarterly
implementation plan due on March 18, 2007 was delivered on April 9, 2007; the plan due
on June 17, 2007 was delivered on the due date.

OIG Response: We reviewed the two quarterly implementation plans submitted and
found that they did not include the activity-based budget for each of the five activities as
required by contract modification number two. The quarterly implementation plan should
meet the contract requirements. As such, we consider the recommendation to have
received a management decision, but final action has not been taken. We encourage
the Cognizant Technical Officer to follow up with the contractor to ensure that the
quarterly implementation plans meet the contract requirements prior to submitting
evidence of final action to the Audit Performance and Compliance Division
(M/CFO/APC).

Regarding Recommendation No. 2, the Cognizant Technical Officer for the Mission’s
Local Governance Program has developed a calendar of deliverables. The calendar of
deliverables is shared by the Mission and the Contractor and provides a tool for tracking
the contract deliverables and their corresponding due dates.

OIG Response: We reviewed the calendar that includes due dates for future
implementation plans and found it to be sufficient to address the recommendation.
Therefore, we consider that final action has been taken on this recommendation.

Concerning Recommendation No. 3, the Mission stated that it completed the evaluation
of the contractor’s performance for the period May 2006 through April 2007.

OIG Response: This recommendation addressed a repeat finding from a prior audit of
the local governance activities. In addition to the contractor performance evaluation
mentioned in the Mission’s comments (actual period was May 9, 2006 to May 8, 2007),
there was also a prior evaluation in progress for the contractor for the reporting period
ending May 8, 2006. We reviewed the copies of the evaluations provided by the Mission
and checked the status of those evaluations on the internet-based Contractor
Performance System (CPS) hosted by the National Institute of Health.

According to the CPS website, the contractor’s performance evaluation for the reporting
period ending May 8, 2006 was finalized on May 23, 2007.

The evaluation for the reporting period ended May 8, 2007 is shown as being in
progress. This means that the Cognizant Technical Officer has evaluated the
contractor’s performance but the contractor has not yet submitted comments. The
contractor’s comments are due on August 7, 2007. Based on the steps already taken


                                                                                          9
and those in progress, we consider that a management decision has been reached on
this recommendation. Once the contractor’s performance evaluation for the reporting
period ending May 8, 2007 is finalized, please provide evidence of final action to the
Audit Performance and Compliance Division (M/CFO/APC).

A determination of final action for Recommendations Nos. 1 and 3 will be made by the
Audit Performance and Compliance Division (M/CFO/APC).

USAID/Iraq’s comments to the draft report are included in their entirety in Appendix II.




                                                                                     10
                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General, Baghdad (RIG/Baghdad) conducted this audit in
accordance with generally accepted government auditing standards to determine if
USAID/Iraq’s local governance activities under the Research Triangle Institute (RTI)
achieved their intended outputs. USAID/Iraq awarded RTI a two-year contract with an
estimated cost of $90 million to implement the follow-on local governance activities
program. Awarded in April 2005, this base contract included three one-year options and,
during the period of the audit, USAID/Iraq exercised two option periods. Consequently,
USAID/Iraq had obligated and disbursed $175.4 million and $61 million, respectively, on
local governance activities as of December 31, 2006.

The audit was conducted at the offices of USAID/Iraq and the Provincial Reconstruction
Teams (PRTs) in Erbil and Mosul, and at RTI’s offices in Baghdad, Erbil, and Mosul. We
performed fieldwork from February 26 through April 10, 2007. The audit covered the 15
month period from October 1, 2005 to December 31, 2006.

In planning and performing the audit, we obtained an understanding of and assessed the
Mission’s controls related to the monitoring of the local governance activities. The
management controls included completion of the annual Federal Managers’ Financial
Integrity Act reports; weekly progress reports from the PRTs; cognizant technical officer
visits to the PRTs and RTI’s offices; review of the RTI’s activity reports, and emails
between the cognizant technical officer and RTI. We reviewed RTI’s annual, quarterly
and monthly reports, but did not audit the information because there were no planned
activities to compare with RTI’s reported achievements.

We also reviewed and assessed the actions taken by the Mission to address audit
recommendations from RIG/Baghdad’s audit of the first local governance activities
program (Audit Report No. E-267-06-003-P) implemented by RTI from March 2003
through May 2005.

Methodology
To answer the audit objective, we reviewed relevant sections from the Federal
Acquisition Regulation and from the Agency’s Automated Directives System related to
performance measures. We also reviewed the requirements set forth in the contract and
its modifications.

We interviewed officials from USAID/Iraq and its implementing partner, RTI. We
reviewed financial and performance documentation provided by the Mission. We
reviewed the information reported in RTI’s annual, quarterly and monthly reports, but we
did not audit the information because RTI only reported on achievements.

Because the intended outputs were not defined, we could not identify a population for
testing, and as a result, we did not establish a materiality threshold.




                                                                                      11
                                                                           APPENDIX II 




MANAGEMENT COMMENTS




ACTION MEMORANDUM


TO:           Regional Inspector General/Iraq Nancy Lawton

FROM:         USAID/Iraq Mission Director Hilda Arellano


SUBJECT : USAID/Iraq Written Comments on Audit (Report No. E-267-07-0XX-P)

USAID/Iraq has reviewed the subject report in detail and would like to thank you for the
professional work by your office on the subject audit. We appreciate your efforts to
review Iraq’s Local Government Program and your recommendations to improve its
implementation. In a fluid and insecure environment, USAID is helping the Iraqis to
implement more decentralized government. USAID recognizes the importance of
establishing intended outputs or baselines to measure progress in that effort.


USAID/Iraq agrees with recommendations and has taken action to follow them.

Recommendation No. 1: Require the contractor to submit the current quarterly
implementation plan within 30 days of the issuance of this report, and if this plan is
not submitted, that the Contracting Officer determine whether this contract should
be terminated for default.

Action Taken: Quarterly implementation plans have begun to be delivered regularly.
The quarterly implementation plan due 18 March, 2007 was delivered on 9 April, 2007
and the quarterly implementation plan due June 17, 2007 was delivered on 17 June, 2007.

Recommendation No. 2: Establish a procedure that ensures that all future
quarterly implementation plans are submitted as required.

Action Taken: To address the issue of clarity with respect to what deliverables are due
under the contract and when they are due, the CTO developed a calendar of deliverables.
The calendar constitutes a mutually agreed reference for the deliverables under the
contract and their due date that is shared by both parties and is easy to track.


                                                                                      12
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
